<html>
<title> - PROTECTING AMERICA FROM THE THREAT OF ISIS</title>
<body><pre>[Senate Hearing 114-690]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 114-690
 
                      PROTECTING AMERICA FROM THE
                             THREAT OF ISIS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                              MAY 26, 2016

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
  
  
  

                             

                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-710 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001            
        
        
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                  Christopher R. Hixon, Staff Director
                    Daniel P. Lips, Policy Director
             David S. Luckey, Director of Homeland Security
           Elizabeth E. McWhorter, Professional Staff Member
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
       Harlan C. Geer, Minority Senior Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Portman..............................................    14
    Senator Peters...............................................    17
    Senator Ayotte...............................................    19
    Senator Booker...............................................    24
    Senator Ernst................................................    27
Prepared statements:
    Senator Johnson..............................................    37
    Senator Carper...............................................    38

                                WITNESS
                         Thursday, May 26, 2016

Hon. Alejandro N. Mayorkas, Deputy Secretary, U.S. Department of 
  Homeland Security..............................................     5
Justin Siberell, Acting Coordinator of Counterterrorism, Bureau 
  of Counterrorism, U.S. Department of State.....................     6

                     Alphabetical List of Witnesses

Mayorkas, Hon. Alejandro N.:
    Testimony....................................................     5
    Prepared statement...........................................    40
Siberell, Justin:
    Testimony....................................................     6
    Prepared statement...........................................    47

                                APPENDIX

Department of State and USAID Joint Strategy Report on Countering 
  Violent Extremism..............................................    53
Responses to post-hearing questions for the Record
    Mr. Mayorkas.................................................    65
    Mr. Siberell.................................................    87


                      PROTECTING AMERICA FROM THE



                             THREAT OF ISIS

                              ----------                              


                         THURSDAY, MAY 26, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Ayotte, Ernst, Sasse, 
Carper, McCaskill, Tester, Baldwin, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order.
    I want to welcome our witnesses. Thank you for taking the 
time to appear here today and for submitting your thoughtful 
testimonies. We are looking forward to the answers to our 
questions.
    When I took over as Chairman of this Committee, working 
with Senator Carper, who, by the way----
    Senator Carper. A bloodless coup. It was a bloodless coup.
    Chairman Johnson. But, he is looking pretty good, having 
just spent 4 days traveling with the President to Vietnam and 
just getting back yesterday. So, he got a good night's sleep. I 
appreciate that.
    But, one of the first things we did is we developed a 
mission statement for the Committee--pretty simple: to enhance 
the economic and national security of America. Then, on the 
Homeland Security side of the Committee, we established four 
basic priorities:
    Border security: we have held, I think, 18 hearings on some 
aspect of our unsecured border.
    Cybersecurity: we passed the Federal Cybersecurity 
Enhancement Act of 2016--a good measure.
    Protecting our critical infrastructure, particularly, our 
electrical grid, from a kinetic terrorist attack, a cyber 
attack, electromagnetic pulses (EMP), and geomagnetic 
disturbances (GMD).
    And then, finally, what can we do, as a Nation, to protect 
our homeland against Islamic terrorists and other violent 
extremists?
    So, this hearing is really about that last priority--
addressing Islamic terror and trying to secure our homeland and 
keep it safe. Not an easy task.
    For every last one of these hearings, the goal is, 
primarily, to lay out a reality, as best we can, so that we can 
identify--define the problem--admit we have it, so we can 
actually work toward some common-sense solutions, recognizing, 
in this realm, the solutions are very difficult and it is going 
to take quite some time to, finally, in the end, defeat Islamic 
terror.
    I just want to lay out a couple of facts that have been 
developed by staff--recognizing again these are estimates. 
There is nothing hard and fast, but it just gives us some 
indication of what we are dealing with here, when we are 
talking about the Islamic State of Iraq and Syria (ISIS).
    Apparently, the monthly revenues of ISIS have dropped from 
$80 million per month, which would be a little less than $1 
billion per year, to about $56 million per month, about $672 
million a year. Still, some pretty significant revenue in the 
hands of barbarians.
    There have been 12 confirmed cases of the use of a mustard 
agent. Three other cases are suspected, both in Syria and Iraq. 
That ought to concern everybody.
    More than 42,900 foreign fighters have entered the conflict 
zone--about 7,400 Westerners. ISIS has trained at least 400 
fighters to target Europe with its external operation.
    At least eight of the Paris plotters were foreign fighters 
returning from Syria. The same network behind the Paris attacks 
and the Brussels attacks--it is the same network that was 
behind the Paris attacks and the Brussels suicide bombings. In 
total, there were 162 victims.
    There were 1.8 million illegal border crossings into the 
European Union (EU) in 2015. The previous year, in 2014, there 
were 280,000. So, you can just see that, as things degrade in 
Syria and Iraq, it is putting enormous pressure on European 
Union States.
    ISIS has 43 affiliates--according to some reports--
supporting groups, globally. So, the fact that ISIS has a 
territory--has established this caliphate--other Islamic terror 
groups are beginning to pledge their loyalty. So, ISIS 
continues to metastasize. Until we finally do defeat them, they 
are going to continue to inspire. They are going to continue to 
metastasize and continue to be a real and growing threat.
    So, again, I think we have to take this seriously. We will 
continue to explore this. I am really looking forward to the 
testimonies from representatives from the Department of 
Homeland Security (DHS) and the Department of State (DOS).
    With that, I will turn it over to Senator Carper, after I 
ask consent to enter my written statement in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    Senator Carper. I think that is a great idea.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Mr. Chairman, thank you for pulling this 
together. I want to say to the Secretary and to Justin, thank 
you very much for joining us today. It is an important hearing 
and a timely one as well.
    Our thoughts and prayers continue to be with the people of 
Belgium and the people of France, who have not only endured 
losses from terror attacks in their capital cities, but also 
have endured the recent tragedy involving the crash of the 
EgyptAir flight that departed from Paris' Charles De Gaulle 
Airport earlier this month. While we are still learning the 
facts surrounding the loss of the EgyptAir flight, this tragedy 
reminds us that securing our homeland is likely to remain an 
ongoing challenge for some time to come--and our efforts must 
adapt as groups, like ISIS, evolve their tactics.
    The Chairman has alluded to some of the progress that is 
being made, on the battlefield and in other ways, with respect 
to ISIS--and it is a big coalition: 60 nations. It is beginning 
to work and we are providing, I think, good leadership. It is 
going slower than we would like, but real progress is being 
made--not only in terms of regaining land, but in reducing 
their capacity to be successful in that part of the world, in 
taking away their money, and in limiting their ability to 
finance their operations.
    But, securing our borders and our immigration system is, 
obviously, a key element of keeping us safe--and we have 
focused quite a bit on those topics as of late, as you know. 
Hearings on the Syrian refugee program, the security of the 
Visa Waiver Program (VWP), and the thoroughness of all visa 
screening efforts bear witness to our focus. We found that the 
Syrian refugee screening process takes upwards of 2 years and 
that DHS has enhanced the security of the Visa Waiver Program--
not once, not twice, but three times in the last 18 months--and 
this Committee has focused a lot of time and energy on that as 
well. And, our government also deploys special visa teams 
abroad to help consular officers detect fraud.
    Securing our borders, however, is only half of the battle. 
We could shut down all travel and immigration to this country 
and still not be safe from terrorist threats. That is because, 
as Peter Bergen testified, in November--I believe right here in 
this room--and this is a quote from him, ``Every person who has 
been killed by a jihadi terrorist in this country since the 
attacks on September 11, 2001 (9/11) has been killed by an 
American citizen or resident.''
    Let me say that again: ``Every person who has been killed 
by a jihadi terrorist in this country since 9/11 has been 
killed by an American citizen or resident.''
    The people who carried out those attacks were not foreign 
students, they were not tourists, and they were not even 
refugees. They were Americans. And, in many cases, they had 
spent much of their lives in this country--in the United 
States.
    For instance, the Tsarnaev brothers spent nearly a decade 
in the United States before carrying out the Boston Marathon 
bombing. Major Nidal Hassan was born and raised in America and 
was serving in the U.S. Army when he committed the Fort Hood 
attack. Syed Farooq spent most of his life in California before 
he and his wife committed the San Bernardino massacre. 
Unfortunately, ISIS knows all too well that the best way to 
attack America is to have Americans do it for you. That is why 
ISIS has put an emphasis on using social media and the Internet 
to radicalize Americans at home.
    In order to counter homegrown terrorist attacks, we have to 
do our best to make sure that, when ISIS makes its recruitment 
pitch to Americans, their twisted message falls on deaf ears. 
But, if ISIS is successful at radicalizing Americans, we must 
also be vigilant in ensuring, to the best of our ability, that 
we can stop almost every terrorist attack well before an attack 
can be carried out.
    Let me be clear. The Department of Homeland Security--and 
other agencies--are not alone in tackling the threat of 
homegrown terrorism. Congress must help. Indeed, all Americans 
must help. We can start by taking action to keep weapons--
whether they are explosives, dirty bomb materials, or guns--out 
of the hands of terrorists here. We also need to improve the 
ability of our law enforcement and intelligence agencies to 
detect homegrown terrorism plots by helping them work through 
their challenges on encryption. And, finally, we need to give 
our Federal agencies the tools they need to help prevent our 
young people from falling prey to ISIS' online propaganda.
    Late last year, I authored, with some of our colleagues 
here, legislation to empower the Department of Homeland 
Security to tackle this challenge. This legislation would 
create an office at the Department of Homeland Security tasked 
with working with community groups, families--especially young 
people--and religious leaders to develop community-based 
solutions for stopping the recruitment of young Americans into 
ISIS. Our legislation was reported out of Committee earlier 
this year. It was also included in the Department of Homeland 
Security Accountability Act of 2016, which we approved just 
yesterday. We need to get this bill enacted into law as soon as 
possible, so that we can further help our communities resist 
ISIS' recruitment efforts.
    Secretary Mayorkas and Mr. Siberell, I want to commend you 
and your Departments for the work that you do to protect our 
people, in this country, from terrorist attacks, both at home 
and abroad. We stand ready to work with you both--and your 
colleagues both--to make sure that your Departments have the 
resources that you need to combat these threats.
    We welcome your testimonies. We appreciate your hard work, 
the leadership that you are providing, and your selfless 
devotion to our country. God bless you. Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    It is the tradition of this Committee to swear in 
witnesses, so if you will both rise and raise your right hand. 
Do you swear the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Mr. Mayorkas. I do.
    Mr. Siberell. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Ali Mayorkas. Mr. Mayorkas is the 
Deputy Secretary of the Department of Homeland Security. 
Previously, he served as the Director of the United States 
Citizenship and Immigration Services (USCIS), at DHS. A lot of 
acronyms in this business. He was a partner in a law firm and 
the youngest United States Attorney to serve the Nation when he 
was confirmed by the Senate, in 1998, as the U.S. Attorney for 
the Central District of California. In that capacity, he also 
served as the Vice Chair of the Attorney General's (AG) 
Advisory Subcommittee (AGAC) on Civil Rights and was a member 
of the Subcommittee on Ethics in Government. Mr. Mayorkas.

  TESTIMONY OF THE HONORABLE ALEJANDRO N. MAYORKAS,\1\ DEPUTY 
        SECRETARY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Mayorkas. Thank you very much, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mayorkas appears in the Appendix 
on page 40.
---------------------------------------------------------------------------
    Chairman Johnson, Ranking Member Carper, and distinguished 
Members of the Committee, thank you for the opportunity to 
appear before you to discuss the priorities and the key actions 
of our Department of Homeland Security to address the terrorist 
threats to our Nation, particularly, following the Islamic 
State of Iraq and the Levant's (ISIL) November 2015 and March 
2016 terrorist attacks in Brussels and Paris. I will be brief 
in my remarks and defer to my written testimony, submitted this 
past Tuesday, so that I can focus on the questions you may 
pose.
    As I articulated in my earlier submission, the threats we 
face today are more complex and decentralized than they were a 
decade ago. We are in a new phase in the global terrorist 
threat. We have moved from a world of terrorist-directed 
attacks to a world that increasingly includes the threat of 
terrorist-inspired attacks--one in which the attacker may never 
have come face-to-face with a member of a terrorist 
organization but is, instead, inspired by the messages and 
propaganda of ISIL. By their nature, such inspired attacks are 
harder for intelligence and law enforcement to detect and could 
occur with little or no notice--presenting a more complex 
security challenge.
    Confronting the world of both terrorist-directed and 
terrorist-inspired attacks, our Department of Homeland Security 
has focused our resources and efforts in four areas, in order 
to counter the diverse and evolving threats we face: aviation 
security, border security, countering violent extremism (CVE), 
and information sharing and support. In each of these areas, we 
have strengthened--and continue to strengthen--our programs and 
processes. And, we are executing critical initiatives to better 
respond to the dynamic threat landscape across the world.
    We have strengthened our screening protocols at domestic 
airports and established security enhancements at foreign 
airports that are the last points of departure to the United 
States. We are continually refining our risk-based strategy and 
our layered approach to border security, extending our zone of 
security to interdict threats as far outward from our homeland 
as possible. We are leveraging all available advance passenger 
and manifest data, intelligence, law enforcement information, 
and open source information.
    We have strengthened the Visa Waiver Program in 
coordination with the Department of State and Congress. All 
individuals traveling as part of the Visa Waiver Program are 
subject to rigorous screening before departure to the United 
States--and throughout the travel continuum. The Visa Waiver 
Program significantly enhances our Nation's security and law 
enforcement partnerships with participating countries and we 
continue to work with our international partners to strengthen 
our information sharing and to increase our joint presence at 
Europol.
    We have strengthened our information-sharing efforts and 
close partnerships with State, local, and tribal law 
enforcement--our key first responders throughout our Nation.
    Finally, we have strengthened our relationships with 
communities across the country and with agencies across the 
government through our Office for Community Partnerships (OCP) 
and the Countering Violent Extremism Task Force. We are working 
in close collaboration to develop guidance, resources, best 
practices, and training to protect communities from violent 
extremism.
    I would like to thank this Committee for endorsing the 
Secretary's key ``Unity-of-Effort'' priority. Strengthening and 
maturing the Department is an ongoing process. We rely on this 
Committee to work with us--legislating the joint task forces--
and having the Under Secretary for Strategy, Policy, and 
Plans--the office that leads our countering violent extremism 
efforts--is critical to ensuring the Department of Homeland 
Security is able to pursue key mission priorities.
    On behalf of our Department, I want to thank you, Mr. 
Chairman--and the Committee--for your support of our 
Department. I am very proud to work alongside 240,000 men and 
women who work each day to protect our homeland.
    Thank you very much.
    Chairman Johnson. Thank you, Mr. Mayorkas.
    Our next witness is Justin Siberell. Mr. Siberell is Acting 
Coordinator of Counterterrorism (CT) in the Bureau of 
Counterterrorism at the U.S. Department of State. He joined the 
State Department Foreign Service in March 1993 and joined the 
CT Bureau in July 2012. He is a career member of the Senior 
Foreign Service (SFS) with the rank of Minister Counselor. 
Before joining the Counterterrorism Bureau, Mr. Siberell was 
Principal Officer in Dubai, United Arab Emirates. In 
Washington, he completed tours in the State Department 
Operations Center and the Executive Secretariat. Mr. Siberell.

    TESTIMONY OF JUSTIN SIBERELL,\1\ ACTING COORDINATOR OF 
 COUNTERTERRORISM, BUREAU OF COUNTERTERRORISM, U.S. DEPARTMENT 
                            OF STATE

    Mr. Siberell. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Siberell appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    Chairman Johnson, Ranking Member Carper, and Members of the 
Committee, thank you for the opportunity to appear before you 
today. The Department of State is working closely with the 
Department of Homeland Security and other U.S. Government 
Agencies to counter ISIL and to keep America safe.
    Mr. Chairman, we face an evolving terrorist threat 
environment that is increasingly dispersed and adaptive. This 
new reality requires that we strengthen partnerships globally, 
including with our European partners. I would like to describe 
some of the steps we are taking to do just that. I have 
submitted a longer statement for the record.
    In partnership with a broad coalition of countries across 
the globe, we have made progress in degrading the capabilities 
of transnational terrorist groups. In particular, the U.S.-led 
Global Coalition to Counter ISIL has made important progress in 
reducing ISIL's control of territory in Iraq and Syria as well 
as constricting the funds and foreign terrorist fighters (FTF) 
available to it. At the same time, terrorist groups continue to 
exploit instability along with weak or non-existent governance, 
sectarian conflict, and porous borders, in key regions of the 
world, to extend their reach, terrorize civilians, and attract 
and mobilize new recruits.
    In the face of increased military pressure, ISIL, al-Qaeda, 
and both groups' branches and adherents have pursued mass 
casualty attacks against symbolic targets and public spaces. 
Terrorist attacks in Bamako, Beirut, Brussels, Jakarta, Paris, 
San Bernardino, and elsewhere demonstrate that these groups 
remain resilient and determined to continue targeting innocent 
civilians.
    Mr. Chairman, the Department of State is working to address 
and to mitigate the threat posed by foreign terrorist fighters 
and other radicalized individuals around the world, 
particularly in Europe. We are working with partners to 
increase information sharing, augment border security, and 
strengthen legal regimes in order to enable more effective 
counterterrorism efforts.
    This engagement has yielded positive results: 45 countries 
with whom we have engaged have either passed new laws or 
updated existing laws to address the threat caused by foreign 
terrorist fighters. The United States now has in place 
agreements with 55 international partners to strengthen efforts 
to identify, track, and deter the travel of suspected 
terrorists. We have provided support to the International 
Police Organization (INTERPOL) to enhance its role in serving 
as a focal point for sharing critical FTF identity data with 
countries around the world. Fifty-eight countries and the 
United Nations (U.N.) now contribute foreign terrorist 
fighters' profiles to INTERPOL.
    Many of these actions were guided by the requirements upon 
member States that were identified in U.N. Security Council 
Resolution 2178, a landmark document developed by the United 
States and agreed to, unanimously, by Security Council members 
in September 2014.
    We continue to work with DHS and our 38 Visa Waiver Program 
partners to strengthen our vital security and counterterrorism 
partnership, including by implementing changes contained in the 
Visa Waiver Program Improvement and Terrorist Travel Prevention 
Act of 2015. The Visa Waiver Program gives us unprecedented 
leverage to hold our partners to the highest standards of 
security in issuing passports and screening travelers--and it 
is vital to the security of the homeland as well as to the 
security of our closest allies.
    We have increased our engagement with our European partners 
in the aftermath of the horrific terrorist attacks in Paris and 
Brussels. Earlier this year, we deployed Foreign Fighter Surge 
Teams, composed of experts from across the U.S. interagency 
counterterrorism community, to several European countries, 
including Belgium and Greece. These interagency teams are 
working with partners to identify concrete areas for tightening 
cooperation in order to identify, disrupt, arrest, and 
prosecute suspected foreign terrorist fighters.
    The Department of State is strengthening our international 
partners' border security through the development and the 
deployment of the Terrorist Interdiction Program (TIP) as well 
as by working with the Department of Homeland Security to 
deploy key technologies to assist governments with more 
effectively identifying and targeting suspect travelers. These 
programs provide a highly valuable capability to countries for 
strengthening border controls through enhanced technology and 
training.
    Effective border security is one of the most essential 
tools governments possess to deny terrorists the space and the 
freedom to plot and carry out attacks. And, our efforts, in 
this regard, are aimed at ensuring our international partners 
will adopt and implement the effective procedures and 
technology to enhance our collective security.
    We are also increasing our focus on identifying and 
preventing the spread of violent extremism--to stop the 
radicalization, recruitment, and mobilization of individuals to 
engage in terrorist attacks. Yesterday, the Department of State 
and the U.S. Agency for International Development (USAID) 
released the first ever joint strategy on countering violent 
extremism, which articulates an expanded effort to better 
understand and address the drivers of radicalization and to 
disrupt the recruitment into terrorist groups.
    Mr. Chairman, there is no greater priority than keeping 
America safe from the threat of terrorism. The Department of 
State works in close partnership every day with our colleagues 
at DHS and in other government Agencies to counter the threat 
posed to the United States by terrorist groups, like ISIL. We 
greatly appreciate Congress' interest and support of our 
efforts.
    I look forward to your questions and our discussion today. 
Thank you.
    Chairman Johnson. Thank you, Mr. Siberell.
    Mr. Mayorkas, obviously, the headlines nowadays are about 
the long lines at the Transportation Security Administration 
(TSA), so I do want to talk a little bit about that. We did 
have a briefing by Admiral Peter Neffenger in the Senate 
Commerce Committee. I just want your assessment of what is 
causing that. What is the root cause of lines as long as 3 
hours when getting through, for example, Chicago O'Hare 
International Airport?
    Mr. Mayorkas. If I can, Mr. Chairman, thank you very much 
for the opportunity. Let me separate Chicago O'Hare and the 3-
hour lines that were experienced about a week ago, because, 
quite frankly, that was error on our part. That was a failure 
to address, with appropriate staffing, a very predictable surge 
at a peak time of travel. So, that was an aberration, if you 
will, with respect to the Agency's failure to address what it 
was ready for.
    Chairman Johnson. So, we can separate Chicago O'Hare, but 
there are problems at other airports. So, let us talk about the 
problem in its totality.
    Mr. Mayorkas. So, we would identify, I think, three general 
factors, if I may--and they have arisen over the course of 
quite some time.
    First, and very importantly, we have enhanced security 
measures at our airports in response to an Inspector General's 
(IGs) report that was published last year. That Inspector 
General's report identified certain deficiencies in the 
Agency's protocols. And, we have since executed a 10-point 
plan, directed by the Secretary, to address those deficiencies.
    Chairman Johnson. OK. Let me stop you right there. Do you 
have a metric, in terms of what those enhanced security 
measures mean--in terms of throughput? Do we have the average 
number of passenger throughput, versus what it was, and versus 
what it is today?
    Mr. Mayorkas. So, I would have to report back to you on 
that, Mr. Chairman. I do not have that at my----
    Chairman Johnson. OK. I would ask for that be submitted 
afterwards.
    Mr. Mayorkas. Most certainly.
    Second, over a number of years, the staffing at TSA dropped 

considerably. And, it dropped at a time--and this is the third 
factor--when there was an increase in travel volume. And so, I 
would say that those three factors, together: enhanced 
security,--which we will, of course, not compromise--an 
increase in travel volume, and a reduction in the staffing of 
our personnel. And, we are addressing all three of those very 
vigorously.
    Chairman Johnson. So, talk about the staffing, because we 
have also had representatives from U.S. Customs and Border 
Protection (CBP) that are having a hard time with staffing. I 
will tell you that, in Wisconsin, there is not one manufacturer 
that can hire enough people, so just talk about the staffing. 
Is it a budget-related issue? Is it the fact that we are simply 
not able to attract and recruit enough people? Is it an 
attrition problem? Are people leaving for certain reasons?
    Mr. Mayorkas. There are multiple factors. And I appreciate 
the opportunity to explain--and I should, first, thank you and 
your colleagues for a $34 million reprogramming that allowed us 
to hire additional personnel on a very short term basis, to 
convert part-time personnel to full-time, and also to pay 
overtime, so that we can be ready for the summer surge in 
volume.
    There was a purposeful effort to reduce staffing over a 
number of years and to move to a risk-based methodology that 
relied on TSA PreCheck and other throughput accelerators, to 
include ``Managed Inclusion''--a program that we have since 
eliminated, both following the Inspector General's report and 
also under Administrator Neffenger's leadership and assessment 
of the security imperative. We have suffered attrition because 
of the pay that TSA employees receive and because many of them 
are part-time looking for full-time opportunities. And, there 
are better opportunities, in what can be a transitional 
workforce, by virtue of that part-time status.
    So, there are multiple reasons--and we are talking each and 
every one of those. We are converting quite a number of part-
time positions to full-time positions. We are taking a look at 
the pay structure, which, of course, we would need to partner 
with Congress to alter. The TSA employees are not on a general 
schedule (GS) pay schedule.
    We are also taking a look at the staffing models that we 
employ. For example, we have skilled screeners--airport 
screeners--performing functions that do not necessarily require 
those talents. And, we want to move those talents to where they 
are needed and to employ people--divestiture officers--those 
that communicate to passengers in line that they need not take 
off their shoes if they are in a TSA PreCheck line--but, if 
they are not, they need to take off their shoes, their coats, 
etc.
    Chairman Johnson. San Francisco is contracting with a 
private firm to do the TSA security, correct?
    Mr. Mayorkas. Yes, it is.
    Chairman Johnson. How many other airports are using that 
same model?
    Mr. Mayorkas. I know there are others. I do not have the 
exact number. Our ability to staff the security at airports is 
a voluntary--it is a partnership with the local airport. It is 
a voluntary relationship. But, what I think is critical, from a 
security perspective, is that, even if it is a private company, 
they must, of course, maintain security protocols according to 
our standards.
    Chairman Johnson. So, the question I had is this: with 
those private sector contracted companies, are there the same 
long lines at those airports?
    Mr. Mayorkas. San Francisco International Airport is a 
major hub that does have some wait time issues. They are not as 
acute as some of our top airports. And, I should say, it is the 
top airports, at peak times, that create the wait time 
phenomenon. And, we are focused, therefore, on the top 20 
airports, at the peak times, and surging staffing accordingly.
    Chairman Johnson. We are going to have Admiral Neffenger 
here, I think on June 6th or 7th, so I will get into greater 
detail with him. I know he has been doing a top-to-bottom 
assessment of this. You talked about a layered approach toward 
border security. I want to talk a little bit about a layered 
approach to airport security as well. We had a very interesting 
hearing, ``Dogs of DHS.'' I am a big proponent of K-9 units. 
There is no technology that even comes close to the ability of 
the nose of a dog. Can you just talk a little bit about it? It 
has been a year under Admiral Neffenger. He has been doing this 
basic assessment. How close are we to a reengineering of 
airport security?
    Mr. Mayorkas. Thank you very much, Mr. Chairman. Admiral 
Neffenger is a phenomenal leader--and I use that adjective 
advisedly. The assessment is underway, but the changes are 
underway as well. Admiral Neffenger has not waited to complete 
the assessment before implementing the reforms that are already 
identified as needed.
    You mentioned canines. We have deployed additional canines 
and are looking to deploy more. They are, in fact, an 
extraordinarily effective tool, both from a security 
perspective and, critically, from a throughput perspective, 
because individuals who pass the canine review, if you will, 
can go through expedited screening just as though they had 
enrolled in and had succeeded in being approved for TSA 
PreCheck. So, the canine deployments--from a risk-based 
approach--reengineering the TSA PreCheck process--maximizing 
the marketing of the TSA PreCheck. It is a security imperative. 
It is also a throughput advantage.
    We went, last year, from a daily average of 3,000 enrollees 
into TSA PreCheck to now, where we are close to an average 
daily enrollment of 15,000. I think 2 days ago we reached the 
16,000 mark. So, those are two examples of the reforms that he 
has instituted while the assessment is underway--not waiting 
until it is completed.
    Chairman Johnson. OK. Well, thank you. Just so you know, I 
will be highly supportive of beefing up and increasing the use 
of K-9 units. I think that is one of the best things we can do, 
in terms of a layered approach. Senator Carper.
    Senator Carper. Thank you. Mr. Chairman, I had not planned 
to address TSA, but it is something that I think we are all 
interested in. I flew back in from Hanoi, Vietnam, came back in 
through San Francisco, California, connected yesterday morning, 
and landed at Dulles, in Virginia. What I witnessed in travel 
there--and earlier in the month of May and in April--most folks 
on this Committee have TSA PreCheck and that is how we get 
through airports. And, time and again, I went quickly through 
TSA PreChecks and saw long lines of people waiting who were not 
TSA PreCheck folks. I know, in talking with Admiral Neffenger 
several times in the last 2 weeks, one of the things that we 
have to do--it is a collective responsibility, but we have to 
get more people in these trusted traveler programs. And, the 
numbers that you just cited--we are up to 16,000 per week, 
where, previously, TSA was at 5,000 a week in sign-ups--we have 
tripled that. That is very good. We want to continue to do 
that.
    TSA used to have a marketing program. They used a paid 
media program. They have not used that for a while and I think 
they are ramping that up to get the message out again. A pretty 
good television (TV) commercial--or put it online--people 
waiting for it could be like 10, 20, 30, or 40 minutes to get 
through regular checks, while people are zipping by going 
through TSA PreCheck. That is just a great commercial--very 
easy to understand.
    But, the problem we have at TSA--they have a tough job. 
They have all kinds of people wanting to get through the 
security, get on their planes, and go someplace. And, by the 
same token, we have to make sure that nobody gets through that 
is going to create mischief or mayhem on an airplane. There is 
a tension that we have to deal with.
    You have a terrific leader. I do not know who figured out 
we should ask Admiral Neffenger to be the head of TSA, but you 
have a great leader--and some of the problems they had in 
Chicago, that you have mentioned, were management problems. 
They knew the folks were coming. They should have known. They 
should have staffed for it. And, it was a failure of leadership 
in that instance--and the leadership, I understand, has been 
changed--and that is good.
    At London's Heathrow Airport, they are doing some very 
interesting things, as you know, in terms of modernizing the 
procedures you go through for the security checks. And, I 
understand that Delta Air Lines is funding a couple of lanes--
21st Century lanes down at Hartsfield Jackson Atlanta 
International Airport--and that is good. We want to encourage 
other airlines to do the same kind of thing. But, I am told the 
processing time for people going through TSA--rather, through 
regular checks, is about 25 percent.
    Jeh Johnson, our Homeland Security Secretary, sent a 
letter, I think, to Fortune 100 companies asking them to 
consider paying for TSA participation for their employees--
particularly, the ones that are more senior. And, that is 
something I would urge us to do on our own. We all have Fortune 
100--we have Fortune 500 companies in our States. Why do we 
not, as Members of our Committee, send them a copy of Jeh 
Johnson's letter with a cover letter of our own saying, ``This 
is what Secretary Johnson has asked 100 companies to do. Why do 
you not consider doing the same thing as well? '' And, the 
private sector pilots--the Chairman has mentioned this. There 
were a number of pilots that we had the private sector in--I do 
not know, a half dozen or more airports around the country--
where the private sector is actually doing this. I think there 
is an authorization for, maybe, three more of those.
    The last thing I would say is just regarding leadership. 
Leadership is the most implement element in any organization I 
have ever been a part of--whether it is this organization or 
the ones that you all are a part of. And, at the State 
Department and at DHS, we need strong leadership. And, you have 
a great leader in Admiral Neffenger--and we look forward to 
having him here before the Committee.
    That is not what I wanted to talk about, but it is timely--
and it is important.
    I just want to say that the people at TSA--when I go 
through TSA, I thank the people who work there. If they are 
doing a good job, I thank them. I cannot tell you how many 
times people have said to me, ``Nobody has ever thanked me. 
Nobody has ever thanked me before.'' I tell them who I am and 
what I do--and people appreciate that. Two of the most 
important words you can say, when people are doing a good job, 
are just, ``Thank you.''
    As you know, Secretary Mayorkas, we have had a number of 
hearings here on VWP. People are concerned that VWP is the soft 
underbelly. They do not understand how it has morphed from a 
travel facilitation program, years ago, to one that enables us 
to get more information out of the 38 countries that we partner 
with. Would you just take a minute to briefly mention some of 
the ways we have tightened up VWP to make sure that we have all 
of the information--more and more information that has value to 
protect us--and, at the same time, we protect our security. 
Thank you.
    Mr. Mayorkas. Thank you very much, Ranking Member Carper. 
With respect to the Visa Waiver Program, I would answer the 
question in two parts.
    One is with respect to the individual traveler. An 
individual traveler who seeks to avail himself or herself of 
the Visa Waiver Program must, of course, submit an application 
beforehand--and we have strengthened that application to 
capture more data, so we know more about the individual 
traveler before they arrive in the United States. We added, in 
fact, 22 additional fields to the application. And, those 
additional fields have, in fact, elicited data that has been 
very material to our security determinations--whether to allow 
a Visa Waiver Program applicant to arrive here in the United 
States under that program. So, from the analysis and the 
assessment of the individual traveler, we have strengthened the 
application form in very significant ways.
    And, then, for a country to qualify as a Visa Waiver 
Program country, there are, of course, statutory requirements 
that are very critical to our homeland security mission--and 
there are additional requirements that we, ourselves, have 
imposed--and Secretary Johnson has strengthened those 
requirements. The participating country must have a visa 
refusal rate that is under a particular percentage in order to 
ensure that they are not a source of visa fraud. We have 
critical homeland security and law enforcement partnership 
agreements that a country must sign and must implement in order 
to qualify as a Visa Waiver Program country. And, we use the 
Visa Waiver Program as a mechanism to drive better cooperation 
and better information sharing with key international partners.
    And so, from both a micro and a macro perspective, the Visa 
Waiver Program actually enhances our homeland security.
    Senator Carper. Great. Thank you. I have one last quick 
question. In the 2016 omnibus appropriations bill, we provided 
the Department of Homeland Security with, I think, about $10 
million for grants to counter violent extremism--and $10 
million is not a lot of money. It sounds like it is, but it is 
not. How is DHS going to ensure that it has ample resources to 
effectively deal with this threat? How can we help further?
    Mr. Mayorkas. Thank you very much, Senator. The challenge 
of violent extremism is one of our top priorities. The 
Secretary has made it one of his top five priorities. We 
created the Office for Community Partnerships to strengthen our 
efforts in this critical mission area. And, the name is 
actually very significant because, what we used to do, frankly, 
is we used to have discrete lines of effort throughout the 
Department--separate Agencies and separate offices had very 
important and very effective work underway, but we were not 
united in our effort. And, we were not necessarily aligned in 
our allocation of resources. And, under the Secretary's 
umbrella initiative of ``Unity of Effort,'' we brought all of 
those resources and all of those efforts together in the Office 
for Community Partnerships.
    And, the name is important because, ultimately, the 
community, itself, is the most effective means of countering 
violent extremism. And, what we do is we equip, we assist, we 
train, and we empower local communities in the struggle. And, 
under George Selim's leadership, we are going to allocate the 
$10 million--for which we are very thankful--in a grant program 
that the Federal Emergency Management Agency (FEMA) will 
administer. We are tapping into FEMA's grantmaking expertise to 
administer--to ensure that we employ those funds as effectively 
and as usefully as possible. In fact, we are engaging with 
stakeholders now to ensure that the plans that we develop are, 
in fact, the plans that the communities, themselves, believe 
are most prudent and most effective.
    It is a very difficult challenge. ISIL is extraordinarily 
sophisticated and extraordinarily focused on its propaganda 
internationally, including its very able use of social media in 
its effort to radicalize individuals here in our homeland. And 
so, we have to counter that message--as you have alluded to 
earlier--and we cannot do it, of course, as a government, 
alone. We need to partner, not only with communities, but also 
with the private sector--and we are working with technology 
companies, students, universities, and colleges to really 
engage in countering violent extremism messages in a peer-to-
peer (P2P) format, which we think is the most effective way to 
proceed.
    Senator Carper. Thank you for all of that.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. Thank you for 
holding another hearing on a critical topic.
    I will say, we have not made much progress. And, with all 
due respect to what we just heard about some of the new 
approaches that are being taken, I think it is hard for us to 
sit here this morning and say that ISIS is, in fact, being 
contained, which is what the Administration has said on 
occasion. Of course, ISIS is also called the ``Junior Varsity 
(JV) team'' and ISIS was called ``a bunch of guys in a truck.'' 
I think that was all misleading rhetoric. And, sadly, if you 
look at what has happened, you have to say that ISIS continues 
to grow. It continues to grow in a lot of respects. One, is a 
destabilizing effect on the Middle East--well beyond Syria now. 
Obviously, we are once again trying to retake Fallujah, Iraq. 
We have more and more military assets going into Iraq after 
precipitously pulling out of Iraq.
    I think you have to also say they have further destabilized 
Europe. The Chairman talked about the number of refugees that 
have moved to Europe--many illegally--and we see what has 
happened, obviously, with the attacks in Paris and Belgium. 
But, it goes well beyond that.
    ISIS also poses a greater threat to the United States, 
based on everything that we are hearing in public testimony. I 
assume you two would not disagree with that--that it is a 
greater threat, today, than it was the last time we held a 
hearing. Their ability to reach out to people continues to 
grow. When you look at what is happening on the Internet and 
the real social media communication that is going on--we are 
losing the battle.
    And so, my only concern about the back and forth this 
morning--and I have a lot of respect for Mr. Mayorkas, as he 
knows, and, Mr. Siberell, I do not know you, but it looks like 
you have a good background and that you are doing your best. 
But, I think there is not a sense of urgency here. And, I 
think, it is right that we have passed some legislation here, 
out of this Committee, that can be helpful. It is correct that 
we did provide some more funds for some of these important 
uses, but I would say on all three levels--as I see them, one 
is the military level--really going after ISIS, particularly, 
in Syria and Iraq. I do not believe we are doing what we should 
be doing to be more aggressive and to be able to eliminate 
their ability to attack us, attack Europe, and attack other 
places.
    Second, on the border security front, we continue to have 
gaps. As the Federal Bureau of Investigation (FBI) Director 
told us, in this Committee, we have serious gaps in 
intelligence, in terms of being able to know who the Syrian 
refugees are who are coming to this country--and yet, they are 
coming.
    And then, finally, I think, perhaps, the most important 
area--the one we have not yet been able to figure out--is 
this--what I would call, ``counterterrorism communication,'' to 
put it broadly--and, specifically, online. I looked at some 
recent data. We are facing a very effective online opponent. 
They have a very slick narrative.
    When we are asked to look at some of the ISIS propaganda 
online, we tend to see the stuff that has to do with violence 
and extremism. Here is a report that we received recently. A 
single month this summer, 52 percent of the nearly 900 
propaganda messages that ISIS sent out were focused on quality-
of-life issues; 37 percent hit military themes; and only 2 
percent touched on brutality or violence.
    So, they are sophisticated. They are reaching out to 
alienated youth in the West and elsewhere. We see this. I mean, 
I do not think we can say that there are fewer jihadists going 
to the Middle East, can we? I think it is increasing. The 
number of foreign fighters is increasing.
    So, I guess what I would ask this morning is, what are we 
doing to respond to this increased capability they have--to the 
urgency of this problem? What would you say is the most 
important thing we should be doing?
    I noticed, Mr. Siberell, you talked about the Global 
Engagement Center (GEC) at the State Department. We have talked 
about the CVE effort at the Department of Homeland Security. We 
have talked about the Office for Community Partnerships. You 
talked about Director George Selim this morning. I know these 
are nascent groups. They are all about a year old--or less, I 
think, at the State Department. I assume the State Department 
started this new group because the Center for Strategic 
Counterterrorism Communications (CSCC) was not working well and 
had not provided the kind of counter-messaging that you had 
hoped.
    Are you all working together? I think it is great that 
there is a ``Unity of Effort'' initiative now at the Department 
of Homeland Security. Is there unity of effort, in terms of our 
government? And, would you say--maybe, I will ask you, Mr. 
Siberell, first. Would you say that we are effectively 
countering the messaging we have talked about this morning?
    Mr. Siberell. Thank you, Senator. The coordination within 
our government, on this issue, is definitely strengthening. It 
is a major challenge. I would agree with you that ISIL's use of 
propaganda--the use of social media and the Internet--to 
propagate their message and to use the Internet as a very 
effective tool to recruit new members really has been 
unprecedented. And, it is not something that we have seen used 
as effectively by any other group, previously.
    I think their message has been blunted. That narrative of 
victory that they relied upon so successfully in their early 
period of recruitment--if you think of the 2014 and early 2015 
era--there have been significant losses that ISIL has suffered. 
That narrative of victory has been blunted somewhat. They are 
not delivering effectively on governance. And, you noted the 
statistics on--they are focused--52 percent of their messaging 
is on quality of life. Well, they have suffered in their 
ability to provide that quality of life. And, the Global 
Engagement Center is a new effort. It is intended to build 
broad networks, globally, to coordinate messaging against----
    Senator Portman. How long has it been up and running?
    Mr. Siberell. Just since earlier this year. There was a new 
Executive Order (EO) that authorized the establishment of the 
Global Engagement Center.
    Senator Portman. Do we still have the Center for Strategic 
Counterterrorism Communications?
    Mr. Siberell. No.
    Senator Portman. And, why not?
    Mr. Siberell. It has been folded into the Global Engagement 
Center.
    Senator Portman. So, you are suggesting that their 
narrative is less compelling now because they have had fewer 
victories and because they cannot focus as much on quality-of-
life issues? Does this mean there are fewer foreign fighters 
that are being drawn to the Middle East?
    Mr. Siberell. Well, the cumulative number of foreign 
fighters is something we have--is unprecedented. That is 
something we have never seen in any previous----
    Senator Portman. Let me restate the question. Are you 
saying that it is effective, in terms of what we are actually 
all looking for, which is fewer foreign fighters--fewer of 
these, let us say, alienated youth from Western countries, 
particularly, being drawn to the Middle East? Is that 
happening?
    Mr. Siberell. We believe there has been a decrease in the 
number of foreign fighters traveling to the conflict, yes.
    Senator Portman. So, you think there is a decrease in the 
number of foreign fighters?
    Mr. Siberell. Yes.
    Senator Portman. Can you give me any information on that, 
in a follow-up communication, as to why you think that and what 
your numbers are based on?
    Mr. Siberell. I would be happy to do that. These are 
numbers and conclusions that also come out of our intelligence 
community (IC)--their observations of less force strength of 
ISIL----
    Senator Portman. But, you would disagree with me this 
morning? You think that we are turning the tide? You think that 
there are fewer foreign fighters coming into the Middle East 
and, therefore, posing less of a risk to the United States?
    Mr. Siberell. I think that there has been a decrease in 
foreign-fighter entry into the Syria-Iraq conflict, but there 
has been an increase in other places--Libya, as an example. 
There are other places where ISIL does continue to attract new 
adherents--new followers. They continue, as you pointed out, to 
associate themselves with existing insurgencies--and that is a 
problem. It is not something that is localized in Iraq and 
Syria. As you have noted, it is a global phenomenon that we 
have to confront around the world--not simply in one single 
place--as difficult as that is.
    Senator Portman. I think it would be misleading, based on 
other Administration officials, who have testified in public--I 
am not talking about our classified briefings--to say that we 
are making progress--to say that it is decreasing, but I would 
love to see your statistics on that and where you got them.\1\
---------------------------------------------------------------------------
    \1\ The information provided by Mr. Siberell appears in the 
Appendix on page 87.
---------------------------------------------------------------------------
    Mr. Siberell. OK.
    Senator Portman. So, Secretary Mayorkas, would you say that 
DHS is communicating directly and coordinating with this new 
Global Engagement Center?
    Mr. Mayorkas. Senator, I am not particularly familiar with 
that aspect of our communication--on the international front. 
My focus has been domestically, countering the violent 
extremist messaging of ISIL as it is targeted to the homeland. 
I would have to defer to my experts in the international arena 
to----
    Senator Portman. Well, my time has expired. I have to--
thank you, Mr. Chairman, for indulging me. I guess, what I 
would say is that this Committee would be very interested in 
knowing what the level of coordination is between the State 
Department and DHS. Let us face it, social media is not subject 
to boundaries. And so, the people you are trying to address in 
those communities are the same people who are hearing this 
message overseas. And, I would hope that we could have better 
communication, within our government, with the ``Unity of 
Effort'' initiative.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. I appreciate our 
witnesses testifying today on this very important topic.
    Certainly, I think it is always important to remember that 
ISIS is responsible for the deaths of tens of thousands of 
Muslims. And, we have to actively engage the Muslim community, 
both abroad as well as the Muslim community in our own States--
and in this country.
    As a Senator from Michigan, I am blessed to represent a 
very vibrant Arab-American, Muslim community in Michigan. Some 
of the most patriotic individuals that I have ever met are part 
of that community. And, certainly, they need to be a part of 
any solution to counter the radical extremism that we see 
coming from ISIS and the recruitment efforts that are occurring 
in our communities.
    Mr. Siberell, I understand--or, in fact, I have a copy of a 
new report\1\ that just came out, I believe just yesterday, on 
the Department of State and USAID's joint strategy on 
countering violent extremism. For the panel, could you 
summarize what you think are the key parts of this new 
strategy? And, how does it differ from the past? And, why do we 
believe that this will be more successful than anything we have 
done in the past?
---------------------------------------------------------------------------
    \1\ The Department of State and USAID Joint Strategy Report on 
Countering Violent Extremism appears in the Appendix on page 53.
---------------------------------------------------------------------------
    Mr. Siberell. Thank you, Senator, for the question. 
Yesterday, we did release the joint Department of State-USAID 
CVE strategy. It is the first time the State Department and 
USAID have released such a strategy. What it gets at, is the 
essential determination and conclusion that our effort in 
confronting violent extremism--terrorism, globally--needs to be 
more comprehensive. We need to scale up our efforts to better 
understand the drivers and the roots of the radicalization that 
is leading to recruitment into these terrorist groups--that is 
enabling these groups to continue to recruit, identify, and 
attract new members, despite the fact that they offer only 
misery, death, and destruction in the communities that they 
control.
    We understand that we have had significant success in 
blunting the capabilities of groups over time and, certainly, 
great success through intelligence, military, and law 
enforcement efforts in removing terrorist leadership. Yet, 
these groups continue to attract new followers.
    So, this strategy is an acknowledgment of the fact that our 
approach--and when I say ``our,'' it is the United States 
working in partnership with countries around the globe--needs 
to be expanded to better understand what is driving people to 
be attracted to the ideology that these groups propagate as 
well as what can be done to address those factors in a more 
effective fashion. So, it lays out a series of strategic 
objectives, the first of which is to invest more seriously in 
research itself--better understanding these drivers and the 
factors leading to radicalization.
    It then discusses the importance of building international 
understanding of the effective measures that can be adopted by 
governments at the national and subnational levels. It 
addresses the importance of orienting some of our capacity 
building and development efforts toward those drivers, 
beginning to blunt the radicalization process, and also helping 
countries to deal with those who may have been radicalized--to 
deradicalize and to be provided off-ramps, effectively, for 
joining up with these organizations.
    It also addresses the importance of effective counter-
narratives. That is an area where we are investing--and the 
Global Engagement Center will be leading in that effort. And, 
the Global Engagement Center--just to address the Senator's 
earlier question--it is an interagency organization housed at 
the State Department, but with representation from across the 
Federal Government.
    And then, finally, the strategy addresses the importance of 
rehabilitation and reintegration efforts--and these are for 
efforts related to those who have, for instance, entered into 
the detention system--the prison system--and what governments 
can do to better reintegrate those--or rehabilitate those--who 
have renounced violence.
    So, the strategy, we believe, provides us a strong 
framework to more coherently implement policies and programs 
around the world to develop this more comprehensive approach, 
which we believe is merited.
    Senator Peters. Thank you. And, that is an overview of what 
is happening overseas. Mr. Mayorkas, if you could, please talk 
a little bit about what is happening in our local communities, 
as I mentioned at the outset of my time, in the vibrant Arab-
American, Muslim communities that we have here in the United 
States and, in particular, in Michigan. I know your Department 
has engaged with the community on a regular basis. Secretary 
Johnson has been in the community as well. Could you give us an 
assessment of where we are, how important those efforts are, 
and what we should expect in the future?
    Mr. Mayorkas. Thank you very much, Senator. Secretary 
Johnson has actually visited and engaged with quite a number of 
communities across the country. I visited Detroit a number of 
years ago, in my prior capacity at USCIS, for the very same 
purpose, from a different perspective, at that time. And, I 
have also, of course, visited Minneapolis, Boston, and New 
York.
    Our efforts in the community are absolutely vital and one 
of the things that we are very focused on, as a Department--
and, quite frankly, across the government--is actually being in 
the community, finding, identifying, empowering, and equipping 
local, trusted voices to be the critical messengers in the 
battle to counter violent extremism--whether they be faith 
leaders, educators, parents, civic leaders, or the like.
    Our Office for Community Partnerships equips local 
communities with tools--with toolkits and messages--and also 
helps them identify the symptoms of an individual on the path 
to radicalization. Across the Administration, we created the 
interagency CVE Task Force to make sure that the ``Unity of 
Effort'' initiative is not only accomplished within the 
Department of Homeland Security, but across the government. And 
so, we have harnessed the resources of the Federal Bureau of 
Investigation, the National Counterterrorism Center (NCTC), and 
other Agencies that are focused on the security and safety of 
the American people. We work in the communities--with the 
communities--partnering with them to really amplify the voices 
and really employ the tools to reach the people who are on the 
path to radicalization.
    Senator Peters. In the number of communities that you 
mentioned--and others that I know you have been involved in--
what have you found the reaction from those communities to be? 
Have they been active and willing partners? And, do you 
consider them strong allies in your efforts?
    Mr. Mayorkas. We very much consider them very strong 
allies. They, themselves, share the concern, not only for the 
safety of the Nation, but for the safety of their respective 
communities. No one--no parent wants to lose a child to violent 
extremism. No parent wants to see a child travel to a conflict 
zone and join a terrorist organization. No responsible parent, 
of course. And so, they are close allies. We have brought 
leaders from communities across the country into the Department 
of Homeland Security--into our offices to understand their 
perspectives, to better understand the sensitivities, and to, 
frankly, learn from them how we can best partner together.
    We do not, of course, have a monopoly on the best ideas and 
how to both work with and impact the communities that we are 
trying to reach. And so, it is very much a collaborative 
effort. It is very much a partnership with those communities.
    Senator Peters. Thank you. My time has expired. I 
appreciate the efforts of both of you. Thank you.
    Mr. Mayorkas. Thank you.
    Chairman Johnson. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman.
    Secretary Mayorkas, when we have a VWP application, is that 
application cross-checked with both our ``terrorist watchlist'' 
and our ``no-fly list? ''
    Mr. Mayorkas. Senator, yes, that application--the data in 
that application is run through multiple databases. And, I 
should say, the Visa Waiver Program traveler is vetted at a 
number of different points----
    Senator Ayotte. OK. So, you have the ``terrorist 
watchlist,'' and the ``no-fly list.'' I assume there is our FBI 
criminal database--the recordskeeping process for our criminal 
records. What other databases?
    Mr. Mayorkas. It is the ``terrorist watchlist,'' and the 
``no-fly list,'' our law enforcement databases, which you have 
identified, and also other intelligence databases. And, I can 
certainly provide--subsequent to this hearing--greater 
specificity on which of those databases are checked.
    Senator Ayotte. OK.
    Mr. Mayorkas. But, it is a full complement of databases.
    Senator Ayotte. So, here is my question. When we look at 
the attacks that happened in Paris, first, and then, 
subsequently, in Brussels, my question is this: We know that 
many of the European countries, and, in particular, four 
countries--the United Kingdom (U.K.), Germany, France, and 
Belgium--have actually received some of the greatest numbers of 
foreign fighters that have gone back and forth between either 
Iraq or Syria. And, my question is pretty straightforward: 
Those that we know were involved in the Paris attacks--or the 
Brussels attacks--were any of those individuals not on our 
``terrorist watchlist'' or our ``no-fly list''--which is a 
smaller subset of the ``terrorist watchlist''--or our other 
databases? Do you know the answer to that?
    Mr. Mayorkas. I do not. I would defer to our experts and I 
will, certainly, follow up with you, Senator.
    Senator Ayotte. So, this is a really important question. 
And, the reason I think it is a really important question is 
that we are only as good as the information that we have. And, 
we can add additional questions on the VWP checklist, but we do 
not do an in-person interview with those that apply for the 
Visa Waiver Program, correct?
    Mr. Mayorkas. We do not do a consular interview. That is 
correct.
    Senator Ayotte. Right. I mean, it is a pretty large 
program, with 38 countries involved. So, we are not doing an 
in-person interview. We have added some additional questions, 
but it is really what comes in and what goes out that is the 
most important, in terms of how well we are doing. So, I think 
it is really important for this Committee to understand whether 
any of the individuals that we know were involved in Paris--
that have been identified in Brussels--were they on the 
``terrorist watchlist? '' Were they in any of our other 
databases? If not, then we better understand why not. And, we 
better understand, as we look at the countries of origin--that 
we see if there are gaps in our information sharing. And, the 
reason I ask this is because it has been pretty widely 
publicized, for example, that Belgium had very serious issues 
with their law enforcement capability, as we know that 
information was shared from countries, like Turkey, about at 
least one of the individuals involved in the attacks--and that 
information was not acted upon. And so, would you agree with me 
that this is pretty important for us to understand? Because, 
the program is only as good as the information we have, in 
terms of how this vetting happens.
    Mr. Mayorkas. If I may, Senator, this is absolutely an 
important issue. Whether or not an individual is on a ``no-fly 
list'' is not necessarily dispositive of whether or not our 
security vetting would prevent an individual that would pose a 
threat or danger to the United States from traveling here.
    Senator Ayotte. Well, I would agree, but if they are not on 
the ``terrorist watchlist,'' which is a broader list than the 
``no-fly list--the ``no-fly list'' is a subset of the 
``terrorist watchlist''--and if they are not at least on the 
``terrorist watchlist,'' if they are not in our FBI database, 
or if they are not in some of these other databases that we, 
obviously, cannot discuss here--if they are nowhere, it is a 
lot less likely that we are going to discover them. Would you 
agree with me on that?
    Mr. Mayorkas. Senator, not necessarily. I would----
    Senator Ayotte. OK. Tell me why you think we are going to 
discover them.
    Mr. Mayorkas. If I may--and I will keep it specific to the 
Visa Waiver Program. The application that a traveler must 
complete is a very comprehensive application. In fact, in our 
effort to strengthen the Visa Waiver Program, that application 
has become even more comprehensive. And so, we have picked up 
data for an individual traveler, who is not, necessarily, in 
our databases, but we have picked up data about that traveler 
and that has revealed information that has enabled us to deny 
that individual the ability to travel based on----
    Senator Ayotte. So, let me ask you this: How many VWP 
applications are there? How many are in the program? How many 
people?
    Mr. Mayorkas. I would have to get you that data.
    Senator Ayotte. So, I think it is important to understand 
how much individual investigating is done on each of those 
applications. So, in other words, when I get an application, if 
I am an investigator, how much follow-up work is done on each 
application?
    Mr. Mayorkas. Senator, what I would appreciate is the 
opportunity to have our experts brief you in a classified 
setting as to how we address the extraordinary amount of 
information we receive on those applications.
    Senator Ayotte. OK. So, this is just what I am trying to 
get at here. We know that there were deficiencies in Belgium. I 
know that the Secretary is looking at countries of concern, but 
information sharing is the critical piece here in order for us 
to protect our citizens--whether they are in the Visa Waiver 
Program or not. But, in particular, with this category of 
individuals, because they do not have to take the extra step to 
get a visa. And, I think it is important, whether it is in a 
classified setting or not, that we understand whether, of the 
individuals that were involved in Brussels and in Paris, were 
any of them in any of our intelligence databases, first?
    Second, how many folks do we actually have in this Visa 
Waiver Program?
    Third, for on a hard-copy application, on how many of those 
do we have the opportunity to, actually, individually 
investigate aspects of that application?
    So, that is why the lists become important and that is why 
the intelligence databases become important, because, 
presumably, with the numbers, we cannot individually 
investigate each application. So, what worries me is that you 
have a significant, obviously, number of foreign fighters that 
have returned to these European countries--and the sharing of 
information with our allies is critical. It is also the 
critical piece that determines how effective our Visa Waiver 
Program is.
    So, I know my time is up, but I hope that we will have an 
opportunity to really break this down, so we can fully 
understand how thorough the vetting is for this program. Thank 
you.
    Mr. Mayorkas. Mr. Chairman, may I seek your indulgence to--
--
    Chairman Johnson. Sure, because I am going to seek your 
indulgence next.
    Mr. Mayorkas. This is a very important point. Allow me to 
make a number of points.
    First, we vet every single Visa Waiver Program traveler's 
application. Every single one. One----
    Senator Ayotte. And, what does that vetting involve?
    Mr. Mayorkas. That involves checking against our 
databases--not only the name of the individual, but also 
pinging against our databases and our extensive holdings--all 
of the information that we collect through that application. 
And so, sometimes the information that is of secondary 
importance, if you will--not necessarily pertinent to the 
individual, but pertinent to other individuals' identities, 
whom we identify on the application, has proven to be quite 
material in our security vetting. And, I could explore this 
further with you in a different, classified setting. That is 
the first point.
    Two, the ease with which an individual might travel from 
one European country to another, by way of example, is very 
different than the ease with which--or the difficulty with 
which someone might travel from a European country to the 
United States. Our security protocols at last-point-of-
departure airports are extraordinarily robust--and we have 
multiple layers of security. And so, the travel from one 
foreign country to another is not to be viewed as synonymous 
with the ability of an individual to travel from one foreign 
country to the United States, specifically.
    Third, there is a difference between a refugee, to give a 
particular example, being processed across a border, from one 
European country to another, and what we consider and what we 
employ in our security vetting. The difference between the 
processing of an individual--the capturing of the biographic 
information--and allowing that individual to travel through 
within the European zone, ultimately, to resettle there, is a 
very different process than our multi-tiered, rigorous 
screening process for refugees here in the United States.
    Senator Ayotte. Right. Well, Mr. Secretary, I appreciate 
your description, but that is why I want to know how many folks 
are in the database--or not. And, second, the refugee issue is, 
obviously, a separate issue than the situation of ``I am a 
citizen of Belgium, I am in the Visa Waiver Program.'' I am not 
necessarily--unless we know someone has been back and forth and 
how good our information is--it is really important. So, I 
would also like to know how much we are able to get--given the 
volume--I would like to know what the volume is and how much 
follow-up work we are actually able to do, if we do not have 
someone on a database.
    Thank you.
    Senator Carper. Mr. Chairman, I do not normally interject 
myself into the conversation like this, but I would like to ask 
for just 30 seconds to say something that I think is pertinent. 
We have not talked a lot about the preclearance program. I 
hope, at some point, we will have an opportunity to do that. We 
are trying to grow that. The idea behind preclearance is that 
it pushes out our borders further and further into other 
places, so that folks that are coming through preclearance in 
other countries have interviews and have their biometrics taken 
there.
    And, the other thing is that everybody that comes through 
via the VWP, when you get to this country, we collect--if I am 
not mistaken--their biometrics. They are all fingerprinted. The 
program has gotten better and better and better as time has 
gone by. Is it perfect? No. Can we do better? Yes. We have to 
continue to improve it. But, a lot of work is being done and I 
think we need to acknowledge that.
    Thank you.
    Chairman Johnson. OK. I want to quickly chime in. From what 
I know--and without giving you my rationale--I believe the 
greatest threat we have, in terms of risk factors, stems from 
foreign fighters--or ISIS operatives--coming to America and 
threatening the homeland. And, the least risky is the United 
States Refugee Admissions Program (USRAP) because, with proper 
vetting, we can really reduce risks there, with the number we 
are bringing in. So, that is the lowest risk.
    Then, I would say the Visa Waiver Program is the next 
highest risk.
    But, I think our greatest risk is from foreign fighters or 
ISIS operatives going through Africa, into Central America, and 
coming up through our completely porous border.
    So, that is my ranking in terms of risk assessment: the 
lowest risk: USRAP; the next highest risk: the Visa Waiver 
Program; the highest risk: coming through our porous border. I 
just want your rankings, Mr. Mayorkas and Mr. Siberell. Just 
the ranking. No rationale. We will talk about it later in my 
questioning. What do you think is the ranking, from the lowest 
risk to the highest risk?
    Mr. Mayorkas. I have not ranked them. I would want to think 
about that. I think all of the avenues----
    Chairman Johnson. OK. That is fine. Think about it, because 
I will come back to it in my questioning.
    Mr. Siberell, do you have a quick answer to that?
    Mr. Siberell. I do not have a relative ranking of that 
either. I would say that, with the Visa Waiver Program, as I 
think we have discussed previously, this is a program that 
enables us to have--and provides us leverage--huge leverage 
over the Visa Waiver Program partners to require improvements 
and the strengthening of their own processes. And so, 
therefore, it is effectively a border security program. It is 
very strong.
    Chairman Johnson. OK. Again, I am a supporter of that. I 
think, honestly, the ranking is kind of obvious, but think 
about it and I will come back to you in my questioning. I do 
not want to take any more of Senator Booker's questioning time.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Gentlemen, thank you very much for the 
incredibly difficult work you have done--and do--every day--the 
service you render to our country. I am grateful to you both.
    There were really colossal and consequential intelligence 
failures on the part of our European allies that allowed some 
of these horrific attacks to take place. For instance, we 
understand now that there were a lot of gaps in the ability of 
EU member countries to collect information about people who 
traveled to fight with ISIS in Syria, Iraq, and, now, even 
Libya--even some of the countries, themselves--and we now know 
that Belgium has a lot of problems, internally, as a Federal 
system divided by language, geography, and culture. There are 
eight different security agencies, three languages, and seven 
parliaments. In Brussels, a city of 1.2 million people, there 
are 19 communes, each with its own mayor and administration. 
Their Muslim communities are very different than ours, in 
Europe, in that our Muslim Americans define themselves as 
Americans and feel very integrated into society. European 
Muslims do not have that. There are a lot of challenges for our 
European allies.
    Within the EU, General Michael Hayden has said that EU 
member States share more with the United States, which is a 
good thing, than with each other. But, this allows challenges 
and problems in Europe, I imagine, to fester and to explode--as 
we have seen. Information sharing among EU member States, 
today, is often compared with where we were pre-9/11, which 
involves a lot of overlapping, stovepiped security entities.
    And so, I would just like to, for a second, look at what 
has happened, since the Belgium attack, with our European 
allies--and to see if they are starting to really change their 
procedures and their policies. And, do you believe that there 
is really political buy-in for sharing across borders in 
European countries around counterterrorism? Is there adequate 
coordination going on--information sharing and the like? Either 
of you may respond.
    Mr. Mayorkas. I am happy to jump in first, Senator. Thank 
you very much. So, the issue of information sharing is 
critical--as I identified in my opening remarks--of course, 
critical to homeland security, in terms of the sharing of 
information with us. And, it very well may be true that they 
share more information with us than they do with each other, 
because we demand that information in order for travelers to 
arrive here in the United States, either through the Visa 
Waiver Program or otherwise. They have, in fact, advanced 
considerably in the sharing of information, understanding the 
imperative post-Paris and post-Brussels--and I can cite some 
specific examples.
    We are very encouraged that the European Union passed a 
passenger name record (PNR) agreement for the collection and 
sharing of passenger name record data--information that is a 
critical snapshot of who the individual is--well in advance of 
the travel within the European territory. That is one example.
    Two, they have really empowered and equipped Europol as a 
central repository of information and cooperation--really a 
coordination hub--of which we participate, considerably, in the 
collection, the dissemination, and the sharing of information. 
They now have the European Counterterrorism Centre (ECTC) in 
Europol. They have the European Migrant Smuggling Centre in 
Europol--and that is serving as a great hub. I think they are 
making tremendous advances in the collection and the sharing of 
information. They have a ways to go. They do not necessarily 
collect and share passenger name record information with each 
other. They are marshaling through privacy and other interests 
that have served as a challenge in the past. I think the EU PNR 
agreement is, frankly, a milestone in that effort and I would 
defer to my colleague for any other comments.
    Mr. Siberell. Well, I would agree with all of that. I think 
that there is political will now, within Europe, for improving 
their own systems, integrating watchlists, beginning to collect 
PNR data, and to use that effectively, as Secretary Mayorkas 
noted. I think that this political will is there today. It is 
somewhat late in coming, but it is a result of the fact that 
they have large numbers, as we all know, of foreign terrorist 
fighters that have gone off to Syria. This has been a crisis 
for some time. The Paris and Brussels attacks really brought 
this home. We have seen, certainly, a change in the way that 
they are approaching these issues--a greater willingness and 
understanding that they need to improve their systems and a 
greater openness to work more closely with us--even more 
closely than they had been, which was already close.
    Senator Booker. So, after the 9/11 attacks, we created the 
fusion centers, which I think have been really effective, 
having seen them as a local official and, now, as a U.S. 
Senator. You are mentioning things like Europol, but are they 
really replicating what has been successful here, in terms of 
the fusion centers that we are using? Are we seeing them move 
rapidly, as we did, in that direction?
    Mr. Siberell. What we have seen them do--and I will also 
defer to Secretary Mayorkas--is to lay out the series of steps 
that they need to take to better integrate their systems. I 
think the aspiration is for, ultimately, a unified list, like 
we have developed since 9/11. But, in the meantime, what they 
need to do is to build better integration between their lists 
and to ensure that you can have a single point of search 
against all of their holdings. And, that is an area where we 
can help them--and we are prepared to provide them technical 
assistance as they work through that project.
    Senator Booker. And so, on that point, the House just 
recently passed H.R. 4314, the Counterterrorism Screening and 
Assistance Act of 2016, to accelerate our role in supporting 
them. And, I guess my question is: there is a lot that we have 
learned, a lot of resources that we have, and a lot of 
technology that we have developed. How can our systems better 
help them improve their capabilities? Are there things that we 
should be doing to help share those best practices and to 
provide that kind of technology--that this body here should be 
acting on with great, deliberate urgency?
    Mr. Mayorkas. Senator, I would say, absolutely, yes--and we 
are. And, let me, if I can, give you a bottom line to your 
question, which is that I think they are improving in the 
sharing of information. They are on the right path. They are 
not where we need them to be. But, we are working to make sure 
that they are.
    I am actually joining the Attorney General and others, such 
as General Francis Taylor, the leader of our Intelligence and 
Analysis Office, who is here today. We are going to Europe, on 
Tuesday, to address the very issue that you raise.
    We have offered our technological advances in this area, 
the Secure Real Time Platform, the Automated Targeting System 
(ATS), and the Global Enrollment System (GES). We have offered 
those critical instruments that we, ourselves, have developed 
and, of course, avail ourselves of in order to assist them in 
this imperative--this security imperative.
    Senator Booker. Great. And, I do not have time to go into 
this line of questioning, but I just want to reiterate, in 
terms of CVE efforts, there is a problem with government-run 
CVE efforts, because they are delegitimized--really the ``kiss 
of death'', when it comes to our involvement in countering a 
lot of the messaging that was brought up in earlier 
questioning. And, I just want to encourage the efforts that I 
am seeing, which are going on and that are allowing a thousand 
flowers to bloom--that are more authentic voices. And, one of 
the most authentic voices--and I will just say this in 
conclusion--is former foreign fighters, who, themselves, have 
been disillusioned with the toxicity, the hatred, and what they 
have seen and experienced. Often, they are very persuasive as a 
buffer--or an antidote--to the toxins that are being spewed by 
ISIS. I just would like to say that and to encourage you. I was 
very happy about the State Department and USAID unveiling the 
joint strategy, but I am just hoping that we are investing 
substantively in CVE--and I said this to Secretary Johnson. CVE 
should not mean law enforcement. It should really mean these 
other efforts that are going on, which are empowering local 
communities, helping to elevate authentic voices, and really 
doing the things that actually work to counter violent 
extremism.
    Mr. Mayorkas. Senator, we could not agree more. And, that 
is the ethic that we are, frankly, executing. It is not our 
voice that is going to move the mountain of this challenge but, 
rather, the voices in the community.
    I attended an extraordinary, quite frankly, peer-to-peer 
challenge, where students from all over the world competed in 
developing countermessaging programs. It came from students and 
it was focused on reaching students. Facebook was a critical 
partner in that endeavor. We are working with technology 
companies, so that they serve as platforms for these flowers to 
bloom. We are working with philanthropic organizations (CBOs), 
the community-based organizations, faith leaders, teachers, 
schools, parents, and peers--most critically. And, you have 
identified an extraordinarily powerful voice: those who once 
were on the wrong path and have realized the grave problems of 
their prior ways.
    Senator Booker. Thank you, sir, that is music to my ears. 
And, as a Jersey boy, it is almost like Bruce Springsteen music 
to my ears. Thank you very much.
    Chairman Johnson. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman. Gentlemen, thank 
you for joining us today.
    First, I want to start with a comment, because we have had 
a lot of great discussion this morning, I think, in regards to 
ISIS propaganda and, actually, combating that. I know Senator 
Portman mentioned earlier in his comments that we really need 
that governmentwide coordination in our efforts to combat 
propaganda as well as, I think, to work in the communities. 
And, I share those concerns. I think all of us do. And, I have 
joined with Chairman Johnson and Senator Booker to introduce a 
bill that would require the President to combat terrorists' use 
of social media. That is where we see so much of this coming 
out of, so I do hope that we are able to move that bill forward 
in the Senate--and I just want to thank both of you for 
partnering on that. And, we do have a lot of folks that are 
concerned. We hope to work very well with you as we move 
through a number of these processes.
    Then, Deputy Secretary, if I could start with you, please. 
I understand the benefits of the Visa Waiver Program. I know 
that we have it, but, still, there are some security concerns--
as Senator Ayotte was echoing some of those--but we have 38 
countries that participate in that, from what I understand. Is 
that correct?
    Mr. Mayorkas. Yes.
    Senator Ernst. And, are all of them meeting the necessary 
requirements as they go through the vetting?
    Mr. Mayorkas. Senator, thank you very much. The 
requirements are a prerequisite to joining the Visa Waiver 
Program and to remaining in the Visa Waiver Program. We have 
strengthened that under Secretary Johnson's leadership.
    If, in fact, a country--if we determine or assess that a 
country is falling short of its obligations under the Visa 
Waiver Program, then we develop a remediation plan with a 
timeline and strict requirements in order to ensure that no 
traveler that is arriving in the United States poses a threat 
to the United States. We have, in fact, employed that mechanism 
when a country has fallen short. And so, we are quite rigorous 
in the requirements of the Visa Waiver Program.
    Senator Ernst. Are there any countries not meeting the 
requirements right now?
    Mr. Mayorkas. Senator, there are. We have them on programs 
and any further details I would be happy to share with you in a 
different setting.
    Senator Ernst. Certainly. I appreciate that, because that 
is something that I think the public is concerned about, as we 
have a number of countries involved in this. And, the public 
really does not know what is being followed up on, so, I think, 
as long as we stay on top of that--if it is regular that they 
are meeting their security requirements--how do we check that? 
How do we know that?
    Mr. Mayorkas. Yes. I should say this underscores one of the 
critical benefits of the Visa Waiver Program, which is that we 
do have this leverage with another country--a country that 
wishes to remain in the program. We use it as a tool to ensure 
compliance with extraordinarily stringent obligations that 
serve the security of our homeland. It is a perfect example how 
the Visa Waiver Program serves as a tool of security, rather 
than otherwise.
    I do wish the name was changed because the term ``waiver'' 
suggests some sort of relaxation of a security requirement 
when, in fact, the opposite is true. Not only do we capture an 
enormous amount of information about the individual traveler 
wishing to avail himself or herself of the program, but we also 
use the program--and other nations' desires to participate in 
it--as a driver of information sharing, information collection, 
and greater security partnership with the United States. It 
really dovetails with the question that Senator Booker posed, 
with respect to how a European country does with its security 
mechanisms. Perhaps, they do better with us than they do with 
each other by virtue of their participation in the Visa Waiver 
Program and their desire to avail themselves of that program.
    Senator Ernst. OK. Thank you. I appreciate that 
explanation.
    Mr. Siberell, media reports indicate that we sent a Foreign 
Fighter Surge Team to Brussels a month before the attacks 
there. And, what challenges prevented us and the Belgian 
authorities from preventing the attacks? And, additionally, is 
our Foreign Fighter Surge Team still on the ground there? If 
you could answer that first, please.
    Mr. Siberell. Thank you, Senator. The Foreign Fighter Surge 
Team that was deployed to Brussels--I should first say that 
that followed on cooperation that we have had undergoing, with 
the European countries, since 2013, when the problem of 
individuals traveling to Syria first manifested itself. This is 
before ISIL was a factor--when it was Al-Nusra and the other 
al-Qaeda-affiliated groups. So, we have had a long-standing 
dialogue with our European partners on these issues.
    After the Paris attacks, we had discussions within the 
government to determine what other things we can do now to push 
our European partners to a heightened level of cooperation. Are 
there gaps that we can identify? So, we put together 
interagency teams that went out to Brussels and had a dialogue 
that was quite mature and open. The Belgian Government is open 
to these consultations--and across issues like document 
integrity, passport issuance integrity, and targeted 
screening--techniques that we have developed--that DHS, in 
particular, has developed--helping to instruct the Belgians on 
those new techniques--better integration of watchlists and 
improved information sharing--all of these areas were 
identified in the work plan of that Foreign Fighter Surge Team.
    So, the Foreign Fighter Surge Team made an initial visit, 
as a group, to identify where we would have expanded 
cooperation--and they are ongoing, actually. So, there is a 
work plan that has been developed and we are continuing to send 
individuals back and forth. In fact, we have Belgians also 
coming to the United States. It is an elevated partnership, 
effectively.
    Senator Ernst. OK. Was there anything that could have been 
done by our Foreign Fighter Surge Team to assist before that 
attack happened? Is there any way we could have helped to close 
up that gap?
    Mr. Siberell. I am not aware of any specific piece of 
information that would have been provided or revealed by our 
Foreign Fighter Surge Team members prior to the attack.
    Senator Ernst. OK. And, I am going to jump to the Iraqi 
Kurds, for just a moment, as well. As you know, the Iraqi 
Kurdish forces are one of our critical partners--if not the 
most critical partner we have in the fight against ISIS. And, I 
understand that the Administration just allocated--or 
designated $415 million in financial assistance to the Iraqi 
Kurdish forces. Can you provide the Committee with additional 
details on where the assistance will come from, who it will be 
going to, and what purpose it will be for?
    Mr. Siberell. Senator, I think I will have to take that 
question back and get you an answer. From the counterterrorism 
perspective, I would agree with you that the Iraqi Kurdish 
forces have been among our closest partners and, in 
coordination with the Government of Iraq, have provided a 
critical counter to ISIL, pushing ISIL out of considerable 
areas that they encroached upon, including in northern Iraq. 
And, the Kurds continue to play a critical role with us in the 
coalition to confront ISIL. But, I will have to get you an 
answer on that.
    Senator Ernst. I would certainly appreciate that.
    Gentlemen, thank you for being here, today. I, certainly, 
appreciate your time and efforts.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Ernst.
    Mr. Siberell, in Mr. Mayorkas' opening statement, he talked 
about how ISIS has gone from directing activity to inspiring 
it. I would agree that al-Qaeda directed and that brand of 
Islamic terror was a centralized operation that directed 
activity. But, my take on ISIS is that their method of using 
social media has been to inspire. Outside of their caliphate--
their territory--they are inspiring. But, what concerns me is 
their progression. They are now beginning to direct. Is it not 
true that there are reports that they had a hand in directing 
the Brussels attack--that they have heard different names for 
this--but we will call it an ``external operations unit'' 
beginning to direct. So, they have gone beyond just inspiring, 
to having this ``external operations unit'' and starting to 
direct attacks.
    Mr. Siberell. Senator, I think you have pointed out the 
essential difference and why ISIL poses a new kind of challenge 
than al-Qaeda had previously. Al-Qaeda was made up, 
effectively, of clandestine cells--individuals who had to 
become a member, had to be vetted, effectively, by the 
organization, and then were operating in a clandestine manner--
secretly, in a number of locations around the world, in which 
they devised plots and challenged the security of our partners, 
globally.
    ISIL works using a completely different model. They do 
have, obviously, this core of individuals concentrated in Iraq 
and Syria. They have a very disciplined military structure to 
pursue their efforts there. But, at the same time, they make 
use of the Internet--social media--to inspire others--
individuals who may not actually have become members of the 
group, but who can act on their behalf. And, that also reflects 
the difference in time we have, from when al-Qaeda was at its 
height, to where ISIL is, today, with the Internet and social 
media--having access to those platforms in a way that al-Qaeda 
was never successful in using.
    But, if I could just answer your question. It is true, yes, 
that ISIL has identified--we know they have identified, among 
the foreign fighter cadre, those with skills that could be 
useful in infiltrating back into their home countries to carry 
out plots. So, the ``external operations network'' that ISIL 
has developed is a very real danger. And, we have been working 
against it and have had some success in doing so. But, it is 
absolutely the case that they have also not only trained 
operatives, but that they have trained individuals to inspire 
attacks using social media--deliberately--including using 
individuals in the United States.
    Chairman Johnson. So, we may be nibbling around the edges. 
We may have started to take back some of that territory in 
Iraq. But, they are growing, they are evolving, they are 
metastasizing, and they are starting to send out their 
operatives--let us face it, through the refugee flow, the 
enormous--the 1.8 million refugees flowing into Europe. And, I 
am going to go back to, again, my question, because I think the 
answer is quite obvious. The refugee program, literally, we can 
assure that whatever the number is--10,000--those refugees that 
might be let into this country should pose no risk. You set up 
criteria--women and children or relatives of Syrian-American 
citizens that have the financial capability to support them. 
Again, taking 10,000 out of 4 million displaced refugees--we 
can make sure that we take no risks with those refugees.
    The same is true with the Visa Waiver Program. I agree, I 
think it is--combined with preclearance, we can really reduce 
the risks. So, in the order of what concerns me regarding, 
potentially, ISIS operatives coming to this country--the least 
concern I have is the refugee program and then, next, is VWP. 
By far, my greatest concern is our porous Southern border. 
Correct? I mean, when we were down in Central America, I heard 
a new term--a new acronym: special-interest aliens (SIA). So, 
is that not true? And, does that not also point to the fact 
that we have to secure our border?
    Mr. Siberell, you first.
    Mr. Siberell. Well, I would defer to Secretary Mayorkas on 
the Southern border issues. I think those are three categories 
of concern and we have to ensure that our border security 
measures are effective in preventing any of those categories of 
individuals from threatening the American people.
    Chairman Johnson. I will also point out that, certainly, 
from what I have witnessed, ISIS is very strategic. You do not 
take your foreign force and take over vast territory in Iraq 
without really having been very strategic. And, as we watch 
them dangerously evolve, I am highly concerned. Mr. Mayorkas.
    Mr. Mayorkas. Thank you very much, Mr. Chairman. First of 
all, we are very focused on special-interest aliens--
individuals from designated countries that seek to enter the 
United States illegally. We are extraordinarily focused on 
that. We may not agree, today, Mr. Chairman, on the level of 
security on the Southwest border. That border, in our 
estimation, is more secure than it has been in a long time.
    One of the primary areas of concern----
    Chairman Johnson. Let me just stop you right there, in 
terms of the actual numbers. OK? Unaccompanied alien children 
(UACs) from Central America--let me get it here--in 2014--the 
enormous surge--year-to-date (YTD), through April, which is the 
last number we have, we had 25,500 unaccompanied children. As 
of April 2016, we are at 25,359. We are at the exact same 
level, year-to-date, of unaccompanied children.
    In terms of family units, we are ahead. And, in terms of 
the total number of apprehensions on the border, in 2014, year-
to-date, we were at 261,000. Last year, at the same point in 
time, we were down to 182. Right now, we are at 223. So, again, 
I do not see improvement, in terms of the security of our 
border. It just has not improved. And, it represents an 
enormous risk.
    I will let you finish.
    Mr. Mayorkas. Thank you very much, Mr. Chairman. First of 
all, the unaccompanied children and the family units pose a 
unique challenge because, by and large, those individuals, 
fleeing the three Central American countries of Guatemala, 
Honduras, and El Salvador, do not seek to evade law 
enforcement.
    Chairman Johnson. OK. Again, I really do not want you 
discussing that because it really has nothing to do with ISIS.
    Mr. Mayorkas. OK.
    Chairman Johnson. I was just pointing out that fact, in 
terms of lax security on our border. If you want to talk about 
the numbers I did--the total apprehensions, which are pretty 
much on par with where we were in 2014.
    Mr. Mayorkas. And, 2014 was far different--and far lower--
than in prior years. But, if I may, getting to the point of how 
we ensure the security of the border--and, specifically, with 
respect to the terrorist threat--one of the challenges in the 
smuggling of individuals, is the transnational criminal 
organizations (TOCs) and their participation in the smuggling 
of individuals. We have no evidence that suggests that they are 
willing participants in the smuggling of individuals who are 
members of terrorist organizations. In fact, we have quite the 
opposite--that they wish no part in the overt smuggling--
participation in the smuggling of terrorists. And, perhaps, it 
is--and it would make sense that it is--for fear that they 
would bring the even greater force of the United States to bear 
on their organizations.
    The question is: Are there low-level individuals in these 
organizations who, unwittingly, may be smuggling an individual 
in, from one of these countries, who is, in fact, a terrorist? 
And, we are very focused on that. Our law enforcement 
officers--our Border Patrol agents--are extraordinarily focused 
on that and we have not observed any increasing concern. But, 
that does not suggest that we have not increased our vigilance.
    Chairman Johnson. OK. Thank you, Mr. Secretary. Senator 
Carper.
    Senator Carper. Thank you, Mr. Chairman.
    I just want to return to the last part of the conversation. 
I want to go back to what--I quoted Peter Bergen just a moment 
ago. I will ask my staff to find that quote for me.
    We have been down to the border--down in Central America--
and, as we know, the reason why those people--kids and 
families--are coming up here is because they live hellacious 
lives. It is dangerous. There is a lack of hope and a lack of 
opportunity. And, the Chairman has put his finger on the root 
cause in earlier conversations we have had here. And, that is 
our insatiable demand for drugs. And, we send money and guns 
down to Honduras, Guatemala, and El Salvador and they send 
drugs. And, the gangs and the folks that get our money and guns 
use them to make life miserable for folks. If we lived down 
there and we had kids, we would probably want to come up here 
as well.
    So, anyway, it is a ``needle in a haystack'' problem. I 
think of the border as a ``needle in a haystack'' problem. We 
can find ways to make the needles bigger--and we do that with 
force multipliers--not just for Border Patrol, but force 
multipliers in the air, on the ground, and so forth. But, we 
also need to make the haystack a lot smaller. And, part of that 
is the work that we are doing in partnership with these three 
Central American countries. It is their version of Plan 
Colombia, the partnership that they have established and that 
we are helping to support.
    I told the Chairman a few minutes ago that I thought he 
asked a number of important questions, but one of them was to 
kind of rank the order of the threat. And, he said, I think, 
wisely, that these people--these guys would be stupid to bed 
down for 2 years in a refugee program--and a most toughly 
vetted program, I think, for people coming to this country--and 
for the outside chance they would ever get here after 2 years. 
They are not going to do that. VWP will make that more and more 
difficult. We need to continue to tighten that. Preclearance--
we need to grow that--and some of the other things that we have 
talked about.
    But, I want to go back to what Peter Bergen said right 
here, in this room, when he was testifying--I think it was last 
November. In his words: ``Every person who has been killed by a 
jihadi terrorist in this country, since 9/11, has been killed 
by an American citizen or resident.'' Has been killed by an 
American citizen or resident. And, our focus, wisely, needs to 
be on how we reach out to folks in this country and make sure 
that they do not become radicalized. And, we cannot do it by 
ourselves. We need great partnerships. We need to grow those 
partnerships and to work with families and organizations--faith 
leaders and so forth--and continue to work there. We need to 
fund it and to make that program as effective as we can.
    I have talked to folks in other countries to see why they 
are so challenged in Europe by some of the folks in their 
Muslim community--and they have had incredible migration. We 
have had, relatively, little, but they have had incredibly 
large numbers--millions of people--going from Syria and other 
places into Europe. And, a lot of times, when they get to those 
countries, they are not very warmly welcomed and they end up 
leading isolated lives in communities by themselves--blocked 
off. And, they perceive that they are not welcome there and 
that there is not much hope or opportunity. And, they are very 
susceptible to radicalization.
    One of the keys to our tamping down on those threats, 
here--they are not gone, because people still get radicalized 
here--but we want people, when they come from Syria or when 
they come from these other countries, where they are fleeing 
horror--once we make sure they are not a threat--we want them 
to feel a part of this country and a part of the ``American 
Dream.'' And, to the extent that we can continue to keep that 
alive, we will provide, probably, a lot more safety and 
security for our people than by doing a lot of the other things 
that we are talking about here today.
    Senator Portman asked some questions about ISIS' campaign 
success and so forth. I just asked my staff to pull out really 
quickly, some metrics--we like metrics here. And, I just wanted 
to hit a couple of bullet points.
    ISIS' recent losses have been severe. They have lost about 
40 percent of the territory that they once held in Iraq. 
Coalition forces have killed more than 10,000 ISIS fighters and 
20 key ISIS leaders, in recent months, including ISIS' chief 
propagandist and executioner. Just over a week ago, American 
forces carried out a strike, you may recall, that led to the 
deaths of ISIS' finance chief and second in command, 
simultaneously, which enhanced the capabilities of the Iraqi 
counterterrorism forces. As we know, Iraqi forces recaptured 
Ramadi from ISIS in January of this year. Campaigns to seize 
the ISIS strongholds of Mosul and Fallujah are well underway.
    In May 2016--this month--the FBI Director James Comey said 
that the rate at which Americans are joining ISIS has dropped 
precipitously in the last 9 months. In 2014, 6 to 10 Americans 
were leaving to join ISIS. I believe that was every month. 
Today, it is down to about one per month.
    In May 2016, ISIS announced that ISIL control 14 percent of 
Iraqi territory. That is down from about 40 percent. The U.S. 
Treasury Department also estimates that, due to the combination 
of falling oil prices, smuggling interdiction, and coalition 
air strikes, ISIS' oil revenues, which feed their efforts, are 
down to as low as $250 million per year. That is about half of 
what they used to be.
    Are we done? Is it time to spike the football? No. Is what 
we are doing working? Yes. And, we need to continue to do more 
of that--find out what works and do more of that.
    I have a couple of questions and I would just ask for short 
answers. Mr. Siberell, can you describe for us the kinds of 
improvements that the Foreign Fighter Surge Team is helping the 
Belgians to implement? Additionally, is there the possibility 
for these teams to be deployed to other countries in Europe? 
Just very briefly.
    Mr. Siberell. Yes, the increased and enhanced information 
sharing, integration of watchlists, and risk-based traveler 
screening--techniques that we have developed, in the United 
States, that would be helpful to the Belgians and other 
governments--and we are looking to deploy those in other 
European countries.
    Senator Carper. Good. Thank you. Ali, in your testimony, 
you referenced a method by which homegrown extremists support 
ISIS missions through online hacking. I think you called it 
``doxing.'' Can you just explain, in a little more detail, how 
this works and how the Department can help to counter this 
threat? Thank you.
    Mr. Mayorkas. Thank you very much, Senator Carper. 
``Doxing'' is the practice of taking the name and whatever 
information is available about an individual and publishing the 
name and that information and identifying that individual as a 
potential target of terrorism. And so, ISIL and other terrorist 
organizations will, essentially, ``dox''--will take, for 
example, information about military personnel that they pick 
off of a website--and they will publish it. And, they will 
identify those individuals as potential targets.
    Senator Carper. Good. And, one last question for you, Ali. 
How would we, with respect to soft targets--protecting soft 
targets--how would we increase the security of traditionally 
unsecured areas, let us say, of an airport? And, how would we 
do so in a way that does not further encumber the wait times 
for air travelers? And, could you just share with us, maybe, a 
step or two that DHS has taken towards that goal, please?
    Mr. Mayorkas. Thank you, Senator. So, soft targets have 
been an area of our focus for quite some time--the airports, 
specifically--even before Brussels. As a matter of fact, I 
visited Los Angeles International Airport (LAX) a little over a 
month ago. I met with the leaders of airport security there to 
talk about how they secure the perimeter. This was post-
Brussels, but they had started long before. They had visited 
Israel, which has a great deal of experience in airport 
security as a place of mass assembly--and they have instituted 
quite a number of safeguards. The equipment at the airport and 
the manner in which the airport was both designed and built 
very much had security in mind.
    We worked through our National Protection and Programs 
Directorate (NPPD).
    Senator Carper. I like ``DHS.''
    Mr. Mayorkas. As do I. [Laughter.]
    That organization, under the leadership of Caitlin 
Durkovich, in our critical infrastructure arena, has worked 
with mall operators, theater owners, restaurant owners, and 
throughout the private sector, to ensure that they are properly 
trained and properly equipped to respond as soft targets to a 
potential mass casualty event.
    Senator Carper. Thank you very much. Thank you both for 
being here today. Thank you for your work and for your 
commitment and devotion to our country as well as your 
leadership in your respective Departments. This has been a good 
hearing. This is a threat that is going to be around facing us, 
in this country and around the world, for, maybe, as long as we 
are going to be around--and, certainly, for as far as the eye 
can see. Have we figured out, entirely, how to deal with it? 
No. These guys change their tactics and, over time, we have to 
change what we are doing in response. I think we are doing a 
lot of smart stuff--some of the smart things that we need to 
do. And, when I went back, Mr. Chairman, over to Vietnam 
earlier this week--and I was talking to a number of folks in 
that country, where we have a much better partnership than I 
would have ever imagined when I was a naval flight officer 
(NFO) over there during the Vietnam War. But, the spirit of 
working together, almost as a team, in many respects, is pretty 
amazing, given our history there. But, I used this phrase and I 
think it, probably, is germane here as well. What I said to the 
Vietnamese was, ``If you want to go fast, travel alone. If you 
want to go far, travel together.'' ``If you want to go far, 
travel together.'' And, that is really what we are trying to do 
here--not just in our country--and the Congress, the Executive 
Branch, the military, and so forth--Homeland Security--but all 
across the world. Folks know this is a cancer on our planet. 
And, we have to deal with it. But, if we go together, work 
together, and pull together, we will go a long way--and we need 
to.
    Thank you so much.
    Mr. Mayorkas. Thank you.
    Chairman Johnson. Thank you, Senator Carper. Unfortunately, 
what you are saying is true--that we are going to be living 
with this for quite some time. And, it is unfortunate. We are, 
certainly, old enough to remember what the world felt like 
before global Islamic terror raised its ugly head and started 
slaughtering people.
    It is a reality that I wish did not exist, but it is one 
that does exist. I think this hearing--as I mentioned to the 
witnesses beforehand, the purpose of every hearing--the goal of 
every hearing is to deepen our understanding and to lay out the 
realities--whether, we like them or not, we have to face them. 
And, that is kind of what I have been trying to point out. Here 
is the reality of the situation--not whether we like it, but we 
have to face it, so we can actually deal with it, effectively.
    Again, I certainly appreciate the witnesses' time, your 
thoughtful answers to our questions, and we will keep working 
forward. This is going to be a long struggle. But, we will 
shorten it if we actually admit we have the problem and face it 
the way we have to: as a committed coalition of the willing--of 
the civilized portions of the world, because this is an attack 
on civilization and it has to be defeated.
    So, with that, the hearing record will remain open for 15 
days until June 10 at 5 p.m. for the submission of statements 
and questions for the record. This hearing is adjourned.
    [Whereupon, at 11:52 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                    <all>
</pre></body></html>
